APPENDIX

APPENDIX
Opinion of the Eleventh Circuit Court of Appeals,
United States v. Martavis Hollis Samuel, 826 Fed. Appx. 806
(11th Cir. September 8, 2020) .................................................................................... A-1
Judgment In a Criminal Case, United States v. Martavis Hollis Samuel,
No. 19-CR-80125-ALTMAN (November 25, 2019) .... .................. .......... .................. .. A-6

USCA 11 Case: 19-14928

Date Filed: 09/08/2020

Page: 1 of 5

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14928
Non-Argument Calendar

D.C. Docket No. 9:19-cr-80125-RKA-l

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MARTAVIS HOLLIS SAMUEL,
a.k.a. Tay Tay,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of Florida

(September 8, 2020)
Before NEWSOM, GRANT, and LUCK, Circuit Judges.
PERCURIAM:

A-1

USCA11 Case: 19-14928

Date Filed: 09/08/2020

Page: 2 of 5

Martavis Samuel appeals his 84-month, below-guideline sentence for
possession with intent to distribute cocaine, in violation of 21 U.S.C. § 841(a)(l)
and (b)(1 )(C). He argues that the district court improperly classified him as a
career offender under the Sentencing Guidelines because § 893 .13 of the Florida
Statutes lacks a mens rea requirement regarding the illicit nature of the controlled
substance and, therefore, that his prior convictions under § 893 .13 do not qualify as
"controlled substance offense[s]." See U.S. Sentencing Guidelines Manual
§§ 4Bl.l(a), 4Bl.2(b). Samuel acknowledges that we held in United States v.

Smith that a conviction under§ 893 .13 qualifies as a controlled-substance offense
and, therefore, a career-offender predicate. See 775 F.3d 1262, 1268 (11th Cir.
2014). He contends that Smith was in error given the Supreme Court's holdings in

Elonis v. United States, 135 S. Ct. 2001 (2015), and McFadden v. United States,
576 U.S. 186 (2015). Samuel also asserts that, while Shular v. United States, 140
S. Ct. 779 (2020) approved of part of Smith, it did not address Smith ' s conclusion
regarding mens rea and controlled-substance offenses.

I
We review de novo the district court' s decision to classify a defendant as a
career offender: United States v. Pridgeon, 853 F .3d 1192, 1198 n.1 (11th Cir.
2017). A prioripanel' s holding is binding precedent on all subsequent panels
unless it is overruled by this Court sitting en bane or the Supreme Court. United
2

A-2

USCA11 Case: 19-14928

Date Filed: 09/08/2020

Page: 3 of 5

States v. Jordan, 635 F.3d 1181 , 1189 (11th Cir. 2011). "To constitute an
ovenuling for the purposes of this prior panel precedent rule, the Supreme Court
decision must be clearly on point." United States v. Kaley, 579 F.3d 1246, 1255
(11th Cir. 2009) (quotation omitted). Additionally, the Supreme Court decision
must "actually abrogate or directly conflict with, as opposed to merely weaken, the
holding of the prior panel." Id.
A defendant is considered a "career offender" under the Sentencing
Guidelines if (1) "the defendant was at least eighteen years old at the time" of the
current offense of conviction, (2) the current offense of conviction is "a felony that
is either a crime of violence or a controlled substance offense," and (3) "the
defendant has at least two prior felony convictions of either a crime of violence or
a controlled substance offense." U.S. Sentencing Guidelines Manual § 4 B 1.1 (a).
A "controlled substance offense" is a federal or state-law offense, punishable by
more than one year of imprisonment, "that prohibits the manufacture, import,
export, distribution, or dispensing of a controlled substance ... or the possession of
a controlled substance ... with intent to manufacture, import, export, distribute, or
dispense." Id. § 4Bl.2(b).
In Smith, we held that a prior conviction under § 893 .13 of the Florida
Statutes is a "cqntrolled substance offense" and that the definition of "controlled
substance offense" does not require "that a predicate state offense include[] an
3

A-3

USCA11 Case: 19-14928

Date Filed: 09/08/2020

Page: 4 of 5

element of mens rea with respect to the illicit nature of the controlled substance."
Smith, 775 F.3cl at 1268; see also Pridgeon, 853 F.3d at 1200 (explaining that
Smith "squarely held that a § 893 .13 offense qualifies as a 'controlled substance

offense' despite the fact that the Florida legislature elided the element of mens
rea as to the illicit nature of the controlled substance").

The year. after we decided Smith, the Supreme Court decided Elon is and
McFadden. Elonis held that 18 U.S.C. § 875(c), which proscribes certain threats,

"requires that the defendant be aware of the threatening nature of the
communication." 135 S. Ct. at 2004; see also id. at 2011- 12. In McFadden, the
Court held thatithe government must "establish that the defendant knew he was
dealing with a controlled substance" to convict him in prosecutions involving a
controlled-substance analogue, such as bath salts. 576 U.S. at 188- 89 (quotation
omitted).

II
Here, the district court did not err in classifying Samuel as a career offender
because he was: over 18 years old at the time of the current offense, the current
offense is a controlled-substance offense, and he has more than two prior
convictions for:.controlled-substance offenses. See U.S. Sentencing Guidelines
Manual§ 4B l. l (a). Samuel's argument that his prior convictions under§ 893.13
were not controlled-substance offenses under the Guidelines because the state law
4

A-4

USCA11 Case: 19-14928

Date Filed: 09/08/2020

Page: 5 of 5

lacked a mens rea element is foreclosed by our decision in Smith. See Smith, 77 5
F.3d at 1268. And we are bound by our holding in Smith under the prior-panelprecedent rule. See Jordan, 635 F.3d at 1189.
Samuel's assertion that Shular did not address whether the career-offender
guideline requires a predicate offense to have an element of mens rea regarding the
illicit nature of.the controlled substance is irrelevant-Shular would have had to
abrogate or directly conflict with Smith for us to not apply the prior-panelprecedent rule. See Kaley, 579 F.3d at 1255. To the extent that Samuel argues that
the prior-panel-.precedent rule should not apply because of Elonis and McFadden,
he fails to show how either case directly conflicts with Smith. See Kaley, 579 F.3d
at 1255. Neither decision addressed the Sentencing Guidelines' definition of a
"controlled substance offense," but instead dealt with the mental state required for
the government to obtain a conviction under certain federal statutes.
For these reasons, the district court did not err in applying the careeroffender enhancement based on its determination that Samuel's prior § 893 .13
convictions were controlled-substance offenses.

AFFIRMED.

5

A-5

Case 9:19-cr-80125-RKA Document 41 Entered on FLSD Docket 11/25/2019 Page 1 of 6
Page I of 6

USDC FLSD 2458 (Rev. 09/08) - Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
Southern District of Florida
West Palm Beach Division

JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA
v.
MARTA VIS HOLLIS SAMUEL

Case Number: 9:19-80125-CR-ALTMAN-001
USM Number: 20163-104
Counsel For Defendant: M. Caroline McCrae, AFPD
Counsel For The United States: Jennifer C. Nucci, AUSA
Court Reporter:Francine Salopek

The defendant pleaded guilty to count one of the Information.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE
ENDED

COUNT

21 u.s.c. §
841 (a)( I ),(b)( I )(C)

Possession w ith intent to distribute cocaine

05/ 14/20 19

1

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States
attorney of material changes in economic circumstances.

entence: 11/25/2019

Roy K. Altman
United States District Judge

Date: 11/25/2019

A-6

Case 9:19-cr-80125-RKA Document 41 Entered on FLSD Docket 11/25/2019 Page 2 of 6
USDC FLSD 2458 (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: MARTA VIS HOLLIS SAMUEL
CASE NUMBER: 9:19-80125-CR-ALTMAN-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 84 months.

The court makes the following recommendations to the Bureau of Prisons: That the defendant be
designated to a facility in South Florida for visitation with newborn son and participate in the 500 hour
RDAP program administered by the Bureau of Prisons.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on _ __ _ _ _ __ _ _ _ _ _ __ to _ _ _ _ __ _ __ _ _ _ __ _
at _ __ _ _ _ _ _ _ _ _ _ _ ___, with a certified copy of this judgment.

UNITED STATES MARSHAL

DEPUTY UNITED STA TES MARSHAL

A-7

Case 9:19-cr-80125-RKA Document 41 Entered on FLSD Docket 11/25/2019 Page 3 of 6
Page 3 of6

USDC FLSD 2458 (Rev. 09/08) - Judgment in a Criminal Case

DEFENDANT: MART AVIS HOLLIS SAMUEL
CASE NUMBER: 9:19-80125-CR-ALTMAN-001

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a tenn of 3 years.
The defendant must report to the probation office in the district to which the defendant is re leased within 72 hours of release
fro m the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of re lease from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.

The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance
with the Schedule of Payn;1ents sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as w ith any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
I.
2.
3.
4.
5.
6.
7.
8.
9.
I0.
11 .
12.
13.

The defendant shall not leave the judicial district without the permission of the court or probation officer;
The defendant shall report to the probation officer and shall submit a truthfu l and complete written report within the fi rst fiftee n
days of each month;
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
The defendant shall' support his or her dependents and meet other family responsibilities;
The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
The defendant shall _notify the probation officer at least ten days prior to any change in res idence or employment;
The defendant shall .refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician ;
The defendant shall .not frequent places where controlled substances are illegally so ld, used, d istributed, or administered;
The defendant shall 'not associate with any persons engaged in criminal activ ity and shall not associate with any person
convicted of a fe lony, unless g ranted permission to do so by the probation officer;
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probatio n officer;
The defendant shall notify the probation officer within seventy-two hours of being arrested o r questioned by a law enforcement
officer;
The defendant shall not enter into any agreement to act as an infonne r o r a special agent of a law enforcement agency w ithout
the permission of the court; and
As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant's
criminal record o r p,:rsonal history or characteristics and shall permit the probation officer to make such notifications and to
confinn the defendant' s compliance w ith such notification requirement.

A-8

Case 9:19-cr-80125-RKA Document 41 Entered on FLSD Docket 11/25/2019 Page 4 of 6
Page 4 of6

USDC FLSD 2458 (Rev. 09/08) - Judgment in a Criminal Case

DEFENDANT: MARTA VIS HOLLIS SAMUEL
CASE NUMBER: 9: 19-80125-CR-ALTMAN-001
SPECIAL CONDITIONS OF SUPERVISION
Permissible Search - The defendant shall submit to a search of his/her person or property conducted in a
reasonable manner and at a reasonable time by the U.S . Probation Officer.

Substance Abuse Treatment - The defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include
inpatient/outpatient trealment. The defendant will contribute to the costs of services rendered (co-payment) based
on ability to pay or availability of third party payment.
Unpaid Restitution. Fines. or Special Assessments - If the defendant has any unpaid amount of restitution,
fines, or special asseSSfl\ents, the defendant shall notify the probation officer of any material change in the
defendant' s economic circumstances that might affect the defendant's ability to pay.

A-9

Case 9:19-cr-80125-RKA Document 41 Entered on FLSD Docket 11/25/2019 Page 5 of 6
Page 5 of6

USDC FLSD 245B (Rev. 09/08) • Judgment in a Criminal Case

DEFENDANT: MARTAVIS HOLLIS SAMUEL
CASE NUMBER: 9:19-80125-CR-ALTMAN-001
CRIMINAL MONET ARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$ I 00.00

Fine
$0.00

Restitution
$0.00

If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.

!NAME OF PAYEE

jTOTAL LOSS*

!RESTITUTION ORDERED

* Findings for the total amount of losses are required under Chapters I 09A, 110, 11 0A, and 11 3A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, I 996.
**Assessment due immediately unless otherwise ordered by the Court.

A-10

Case 9:19-cr-80125-RKA Document 41 Entered on FLSD Docket 11/25/2019 Page 6 of 6
Page 6 of6

USDC FLSD 2458 (Rev. 09/08) - Judgment in a Criminal Case

DEFENDANT: MARTAVIS HOLLIS SAMUEL
CASE NUMBER: 9:19-80125-CR-ALTMAN-001
SCHEDULE OF PAYMENTS
Having assessed the defendant' s ability to pay, payment of the total criminal monetary penalties is due as
follows:

A. Lump sum payment of$100.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons' Inmate Financial Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment is paya!,le to the CLERK, UNITED STATES COURTS and is to be addressed to:

U.S. CLERK'S OFFICE
ATTN: FINANCIAL ~ECTION
400 NORTH MIAMI A VENUE, ROOM 08N09
MIAMI, FLORIDA 33,128-7716
The assessment is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the U.S.
Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
<INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The Government shalffile a preliminary order of forfeiture within 3 days.
Payments shall be appli¢d in the fol.lowing order: (I) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fi ne interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

A-11

